APP-A
IN THE SUPREME COURT OF THE STATE OF OREGON
STATE OF OREGON,
Plaintiff-Respondent,
Respondent on Review,
v.
MICHAEL ORTEGA, aka Salvador Amitcar Herrera Flores,
Defendant-Appellant,
Petitioner on Review.
Court of Appeals
A167186
S068425
ORDER DENYING PETITION FOR RECONSIDERATION
Upon consideration by the court.
The court has considered the petition for reconsideration and orders that it be denied.

MARTHA L WALTERS
CHIEF JUSTICE, SUPREME COURT
8/26/2021 10:28 AM

c: Joanna R Hershey
u-Mtehael Ortega
Ik

ORDER DENYING PETITION FOR RECONSIDERATION________________
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

AQV-Z
IN THE SUPREME COURT OF THE STATE OF OREGON
STATE OF OREGON,
Plaintiff-Respondent,
Respondent on Review,
v.
MICHAEL ORTEGA, aka Salvador Amitcar Herrero Flores,
Defendant-Appellant,
Petitioner on Review.
Court of Appeals
A167186
S068425
ORDER DENYING REVIEW
Upon consideration by the court.
The court has considered the petition for review and orders that it be denied.

MARTHA L WALTERS
CHIEF JUSTICE, SUPREME COURT
6/10/2021 9:31AM

c: Joanna R Hershey
Michael Ortega
ms

ORDER DENYING REVIEW
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

APP-3
FILED: January 13, 2021
IN THE COURT OF APPEALS OF THE STATE OF OREGON
STATE OF OREGON,
Plaintiff-Respondent,
v.
MICHAEL ORTEGA, aka Salvador Amitcar Herrero Flores,
Defendant-Appellant.
Washington County Circuit Court
C140476CR
A167186

Andrew Erwin, Judge.
Submitted on December 04,2020.
Before DeVore, Presiding Judge, and DeHoog, Judge, and Mooney, Judge.
Attorney for Appellant: Michael Ortega pro se.
Attorney for Respondent: Joanna Hershey.
AFFIRMED WITHOUT OPINION

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party:

[]

Respondent

No costs allowed.
Costs allowed, payable by

M-Z&

W

%

.

FILEu

OREGON JUDICIAL Ctr ARTHEN7
WASHtNGJ^W^QUNTY

1 :

M«I9 AH

2

22

3
4

IN THE CIRCUIT COURT OF THE STATE OF GREGON

5

FOR THE COUNTY OF WASHINGTON

6

STATE OF OREGON,
Plaintiff;

7

Case No. C140476CR (DA 319679)

vs.

JUDGMENT OF CONVICTION

8
I

Defendant.

9
10

andseNtence

MICHAEL ORTEGA,

This matter came before Judge Thomas W. Kohl on July 22,2014 for sentencing. The State

i

11

of Oregon appeared by Megan Johnson, Senior Deputy District Attorney, and the defendant

12

appeared in person, with court appointed counsel, David M. Veverka, the Court having determined

13

the defendant to be indigent.

14

It appears to the Court that the defendant has been indicted, arraigned, tried and found guilty

IS

by Court verdict of the crimes of Assault in the Second Degree Constituting Domestic Violence

16

(Class B Felony, crime seriousness % criminal history I) in Count 1, Unlawful Use of a Weapon

17

Constituting Domestic Violence (Class C Felony, Crime seriousness 6, criminal history D) in Count

18

3, Coercion Constituting Domestic Violence (Class C Felony, crime seriousness 6, criminal history

19

B) in Count 5, Strangulation Constituting Domestic Violence (Class A Misdemeanor) in Count 6,

20

and Assault in the Fourth Degree Constituting Domestic Violence (Class A Misdemeanor) in Count

21

7. Defendant was found not guilty in Counts 2,4, and 8.

22
23

It further appears to the Court that more than 48 hours have passed since said verdict was
rendered, and there appears no good cause why sentence should not now be passed.
Page 1 - JUDGMENT OF CONVICTION AND SENTENCE (CI40476CR)
Washington County District Attorney
ISO North First Avenue, Room 300, MS#40
Hillsboro, Oregon 97124
(503) 846-8671 Fax ($03) 846-3407

MP- If
i.

W:

1

As to Count 1. it is therefore CONSIDERED, ORDERED AND ADJUDGED by toe Court

2

that, pursuant to ORS 137.700 (Ballot Measure 11), defendant be committed to the legal and

3

physical custody of the Corrections Department of the State of Oregon for a period of seventy (70)

4

; months. Defendant shall serve toe entire seventy (70) months imposed by toe Court. Defendant is

5

not eligible for release on post-prison supervision, early release, or any form of leave or temporary

6

leave from custody. Defendant is not eligible for any reduction of this sentence for any reason

7

whatsoever trader ORS 421.120, ORS 421.121, or any other statute.

•J

8
9
10

11

durational departure from defendant’s 6-D gridblock (13-14 months prison) sentence.
As to Count 5. the Court FINDS substantial and compelling reasons to impose a downward
durational departure from defendant’s 6-B gridblock (19-24 months prison) sentence.

12

As to Counts 3 and 5. it is therefore CONSIDERED, ORDERED AND ADJUDGED by the

13

Court that defendant be committed to the legal and physical custody of the Corrections Department

14

of the State of Oregon for a period of six (6) months in each count. Said sentences shall be served

15

concurrently with each other and concurrently with toe sentence imposed in Count 1.

16

It is further ORDERED that toe term of post-prison supervision shall be for a period of three

17 :

(3) years in Count 1 and two (2) years in Counts 3 and 5. Violation of post-prison supervision shall

IS

subject defendant to sanctions or additional imprisonment.

19

1

As to Count 3. the Court FINDS substantial and compelling reasons to impose a downward

Further, the Court recommends the following conditions he made apart of defendant’s post­

20

prison supervision:

21

1. The defendant shall have no direct or indirect, contact with toe victim, Benita Garcia-Alcantara,
without the prior written permission of supervising officer.

22
23

2. Defendant shall submit toan evaluation and become involved in any treatment/counseling
pr0gram(s) which maybe recommended by supervising officer (to include anger control and/or
batterer’s specific/domestic violence treatment if deemed appropriate) and shall remain in said
Page 2 - JUDGMENT OF CONVICTION AND SENTENCE (C140476CR)
Washington County District Attorney
150 North First Avenue, Room 300,MS#40
Hillsboro, Oregon 97124
(503)846-8671 Fax (503) 846-3407

wi-m

f.

\

l

programs(s) until successfully completed or given permission to withdraw; defendant shall pay
the costs of any evaluation/treatment.

2
3

3. Defendant is prohibited from consuming orpossessing any alcoholic liquor in any formunder
•any circumstances; defendant is further prohibited from entering upon the premises of any bars ,
taverns, or liquor stores.

4
5
6

4. Defendant's person, property, residence or any vehicle defendant may be in are subject to search
at any time by supervising officer having reasonable grounds to believe such search will
disclose evidence of a supervision violation, without prior notice or search Warrant, to determine
if defendant is in compliance with conditions of supervision; any refusal to consent to said
search is a violation of supervision.

7
8

9 :
10
11
12
13

5. Defendant shall submit to random intoxilyzef/body substance testing (at defendant’s own
expense) at the request of supervising officer having reasonable grounds to believe such testing
will disclose evidence of a supervision violation to determine if defendant is in compliance with
conditions of supervision; any refusal is a violation of supervision.
6. Defendant:shall submit to polygraph examination (at defendant’s own expense) by a qualified
polygraph examiner designated by the court or supervising officer to determine if defendant is
in compliance With conditions of supervision; any refusal is a violation of supervision.
7. Defendant shall submit to field sobriety tests upon request of supervising officer having
reasonable grounds to believe such testing would disclose evidence of a supervision violation to
determine if defendant is in compliance with special conditions of supervision; any refusal is a
violation of supervision.

3
i

14
15
16

8. Defendant shall submit to an alcohol evaluation and become involved in any
treatment/counseling program(s) relating to alcohol.abUse which may be recommended by
supervising officer, and shall remain in said program(s) until successfully completed or given
permission to withdraw; defendant shall pay the Costs of any evaluation/treatment.

17

Further, it shall be the semenee of the Gourt that the defendant subniit a blood orbuecalsample

18

atdefendant’sownexpense, unlessdefehdaht lacksthe ability tbpayitotheOregdriState Pohceforthe

19

purposes of establishing a DNA profile.

20

As to Counts 6 and 7. it is therefore CONSIDERED, ORDERED AND ADJllDGED by the

21

Court that defendant be sentenced to the custody ofthe Washington County Jail for a period of six

22 :

(6) months in each count.

23

concurrently with the sentence imposed in Count 1.

concurrentlywith each other and

Page 3 - JUDGMENT OF CO^A^C^^O^^ A^® SE^fFE^^GE (G140476CR).
Washington County District Attorney
ISONoflh First Ayehuejloom 300,MS*40
Hillsboro. Oregon 97124
(503) 846-867! Fax (503) 846-3407

I
I
f

%*£■

w-iy

It is further ORDEREDthat defendant is sentenced to pay to the Clerk of the Court any

1
2

financial obligations in the Money Award section which follows and in the manner specified (which

3:

section is hereby made a part of this judgment).

4 :

It is further ORDERED that the court ordered financial obligations in the Money Award
■;

section be referred to the Oregon Department of Revalue for collection.

5

!

6
7

The State of Oregon is the creditor and the defendant, Michael Ortega, is the debtor.

8

1.

$1,858.00 Court Appointed Attorney Fees (in Count 1).
\

9

2.

$800.00 Fine ($200 in each of Counts 1,3, and 5; and $100 in each of Counts 6
and 7).

3.

$116.97 ^igtirnli^in^oii.
PaytoiCriminal Injuries Compensation Account, Attn: CVCP,
Department of Justice, 1162 Court Street NE, Salem, OR 97301 REF:
CV 00846-14

10
11
12

TOTAL MONEY AWARD: $2.774.97

13

All financial obligations specified in the MChey Award shall be naadc payabletC file State of

14

15

Oregon and shall be disbursed through the Clerk of the Court (150dearth First Avenue; First

16

Hillsboro, Oregon 97124) as set forth in ORS 137.289.
Dated this

17
18

m.f

i

2QJ.4.
l

[geThCmasW. Kohl

19
Court Reporter: FTR (304C)
cc: David M. Veverka
21 ; Control #: XWAS214240113
I
sej
20

22

!

;

23
Page 4 - JUDGMENT OF CONVICTION AND SENTENCE (Ci40476CR)
Washington County District Attorney
150 North First Avenue, RernaSOO, MS840
; Hillsboro, Oregrih 97124
(503)846-8671 Fax (503) 846-3407

/-*•
(

r

*>

i

>f

r

’V

o

CJ
Os

oo
.
WASHINGTON COUNTY CIRCUIT COURT
.1OO
IN THE CIRCUIT COURT OF THE STATE OF OREGON FOR WASHINGTON COUNTY
•c
o
STATE OF OREGON,
No. C14Q476CR
g.
Plaintiff,
o
O
INDICTMENT - Secret
s
g
o

■

VS.

o

M*n ichael ortega
£

Defendant.

The above named defendant is accused by the Grand Jury of Washington County by this indictment of
the crime(s) of
Count 1:
Count 2:
Count 3:
Count 4:
Count 5:
Count 6:
Count 7:
Count 8;

ASSAULT IN THE SECOND DEGREE (FSG= 9; B Felony; ORS 163.175*) (r
UNLAWFUL USE OF A WEAPON (FSG= 6; C Felony; ORS 166.220(1 )(a))
UNLAWFUL USE OF A WEAPON (FSG= 6; C Felony; ORS 166.220(1)(a)) 6- ■
UNLAWFUL USE OF A WEAPON (FSG= 6; C Felony; ORS 166.220(1 )(a)) tJ (r
COERCION (FSG= 6; C Felony; ORS 163.275) t*
STRANGULATION (FSG= ; A Misdemeanor; ORS 163.187) (r
ASSAULT IN THE FOURTH DEGREE CONSTITUTING DOMESTIC VIOLENCE (FSG= ; A C~
Misdemeanor; ORS 163.160*)
ASSAULT IN.THE FOURTH DEGREE CONSTITUTING DOMESTIC VIOLENCE (FSG= ; A
Misdemeanor; ORS 163.160*)

committed as follows:
COUNT 1
The defendant, .on or about February 22, 2014, in Washington County, Oregon, did unlawfully and knowingly
cause physical injury to Benita Garcia-Alcantara by means of a dangerous weapon, to wit: a tool box.
The State further alleges that the act constitutes domestic violence.
COUNT 2
'
The defendant, on or about February 22, 2014, in Washington County, Oregon, did possess a dangerous
weapon, to wit: an iron, and did carry with intent to use said weapon unlawfully against Benita GarciaAlcantara.
The State further alleges that the act constitutes domestic violence.
COUNT 3
The defendant, on or about February 22, 2014, in Washington County, Oregon, did possess a dangerous
weapon, to wit: a tool box, and did carry with intent to use said weapon unlawfully against Benita GarciaAlcantara.
The State further alleges that the act constitutes domestic violence.
///
///
III
Page 1- Indictment

P.40

r

I

/

hPP~3/

>
COUNT 4 •"
T§fe defendant, on or about February 22, 2014, in Washington County, Oregon, did possess a dangerous
weapon, to wit: & coin jar, and did carry with intent to use said weapon unlawfully against Benita GarciaAl|antara.
Tlge State further alleges that the act constitutes domestic violence.
o
cfUNT5
Tlge defendant, on or about February 22, 2014, in Washington County, Oregon, did unlawfully and knowingly
c®npel or induce’ Benita Garcia-Alcantara to engage in conduct from which Benita Garcia-Alcantara had a
legal right to abstain, by means of instilling in Benita Garcia-Alcantara a fear that if Benita Garcia-Alcantara
refrained from the conduct b'ompelled oh ihdUced. thdsaefehdaVif^woiuld funl&wfullv iniure^sOmebneyand
jerifoage in criminal conduct!^
The State further alleges that the act constitutes domestic violence.

COUNT 6
The defendant, on or about February 22, 2014, in Washington County, Oregon, did unlawfully and knowingly
impede the normal breathing or blood circulation of Benita Garcia-Alcantara by blocking the nose and mouth of
Benita Garcia-Alcantara.
The State further alleges that the act constitutes domestic violence.
COUNT 7
The defendant, on or about February 22, 2014, in Washington County, Ofegon, did unlawfully and recklessly
cause physical injury to Benita Garcia-Alcantara with a black and brown belt.
The State further alleges that the act constitutes domestic violence.
Ill
III
III
III
III
III
III
III
III
III
III
III
Page 2- Indictment

P.41

r

(

r

N>t- 3 2

J
o

CJ

. On

oo

•aa

r*
IN THE CIRCUIT COURT OF THE STATE OF OREGON FOR WASHINGTO

NTY

]5b

SB’ATE OF OREGON,
O
>>
©
o
vs.
gO

No.
Plaintiff,

CW<5WT0Cf-

COMPLAINANT’S
INFORMATION

Michael ortega,
.

Defendant.

>

The above named defendant is accused by this information of the crime(s) of
Count 1:

ASSAULT IN THE SECOND DEGREE (FSG= 9; B Felony; ORS 163.175)

committed as follows:
The defendant, on or about February 22, 2014, in Washington County, Oregon, did unlawfully and knowingly
cause physical injury to Benita Garcia-Alcantara by means of a dangerous weapon.
contrary to the statutes and against the peace and dignity of the State of Oregon
Endorsed for prosecution by Washington County District Attorney Bob Hermann.
STATE OF OREGON
County of Washington

)
) ss.
)

I, Jeff Lesowski, being first duly sworn, depose and say: That I am a Deputy District Attorney for
Washington County, Oregon; That I am the Informant in the foregoing Information, JH^t I have read the same,
know the contents thereof, and that the same is true as I verily believe.
4 //

l

i

Oregon State/Bar #963420

SUBSCRIBED AND SWORN to before me on Februa'iT\l24. 2014r-—^
DA #319679
TGP 14-201003
CL
DOB 12/22/1980
Notary Public for Oregon
FPC#: JWAS214240113
Appear 02/24/2014 (in custody)
OFFICIAL SEAL
□ 10:30am Preliminary Hearing
TAMELA G HANSEN
O 4pm Preliminary Hearing

Yv&iwvel

------- -

m
NOTARY PUBLIC-OREGON
/
COMMISSION NO. 44665)
MY COMMISSION EXPIRES MARCH 18,2014

Page 1- Information

P.43
i

